(1 of 9)
Case: 18-50333, 02/09/2021, ID: 11997202, DktEntry: 65-1, Page 1 of 5

FILED

NOT FOR PUBLICATION

FEB 9 2021

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

U.S. COURT OF APPEALS

18-50333

D.C. No.
2:04-cr-00476-SJO-1

v.
MARK ELDON WILSON, AKA Marc
Eldon Wilson,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Central District of California
S. James Otero, District Judge, Presiding
Argued and Submitted January 14, 2021
Pasadena, California
Before: CALLAHAN and WATFORD, Circuit Judges, and RAKOFF,** District
Judge.
Mark Wilson was convicted following a jury trial of multiple counts of mail
and wire fraud. On appeal, he contends that his convictions should be reversed

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Jed S. Rakoff, United States District Judge for the
Southern District of New York, sitting by designation.
Pet. App. 1

(2 of 9)
Case: 18-50333, 02/09/2021, ID: 11997202, DktEntry: 65-1, Page 2 of 5

Page 2 of 5
based on an alleged violation of his Sixth Amendment right to a speedy trial and
several claims of evidentiary error at trial. We affirm.
1. Wilson first argues that the district court erred by concluding that his
Sixth Amendment right to a speedy trial attached only when the indictment was
filed in April 2004, rather than when the complaint was filed in June 2000. We
recognize that a split exists within our circuit over whether a complaint is sufficient
to trigger the protections of the speedy trial right. Compare Northern v. United
States, 455 F.2d 427, 429 (9th Cir. 1972) (per curiam), and United States v.
Terrack, 515 F.2d 558, 559 (9th Cir. 1975), with Favors v. Eyman, 466 F.2d 1325,
1327–28 (9th Cir. 1972), and Arnold v. McCarthy, 566 F.2d 1377, 1382 (9th Cir.
1978). But even assuming that Wilson’s right to a speedy trial attached upon the
filing of the complaint, his claim still fails.
We evaluate whether Wilson’s right to a speedy trial was violated by
balancing the four factors set out in Barker v. Wingo, 407 U.S. 514 (1972): (1) the
length of the delay; (2) the reason for the delay; (3) whether the defendant asserted
his rights; and (4) whether the defendant was prejudiced by the delay. Id. at 530.
With respect to the first factor, approximately six-and-a-half years elapsed
between the filing of the complaint and the government’s extradition request. That
period is sufficiently lengthy to trigger analysis of the remaining Barker factors.
See United States v. Gregory, 322 F.3d 1157, 1161–62 (9th Cir. 2003).
Pet. App. 2

(3 of 9)
Case: 18-50333, 02/09/2021, ID: 11997202, DktEntry: 65-1, Page 3 of 5

Page 3 of 5
As for the second Barker factor, part of the delay may be attributable to the
government’s lack of diligence in preparing the indictment and extradition request.
But it is also true that Wilson contributed to the delay, for he knew of the charges
against him potentially as early as 2001 but at the latest by 2003. He could have at
that time “ended the delay and avoided any prejudice caused by the passage of
time” by voluntarily presenting himself to United States authorities. See United
States v. Aguirre, 994 F.2d 1454, 1457–58 (9th Cir. 1993). Instead, Wilson
initiated lengthy court battles in Canada to prevent the transmission of evidence to
the United States, and he forced the government “to run the gauntlet of obtaining
formal extradition.” See United States v. Manning, 56 F.3d 1188, 1195 (9th Cir.
1995). Because Wilson knew of the charges against him years before the
government sought his extradition in 2007, the third Barker factor, involving
assertion of the right to a speedy trial, “weigh[s] heavily against him.” See
Doggett v. United States, 505 U.S. 647, 653 (1992). And because Wilson’s failure
to assert his speedy trial right contributed significantly to the delay, he is not
entitled to a presumption of prejudice under Barker’s fourth factor. See Aguirre,
994 F.2d at 1458.
Without the benefit of a presumption of prejudice, Wilson bears the heavy
burden of showing actual prejudice. See id. at 1457. The actual prejudice test is
applied “stringently”—the proof of prejudice must be “definite and not
Pet. App. 3

(4 of 9)
Case: 18-50333, 02/09/2021, ID: 11997202, DktEntry: 65-1, Page 4 of 5

Page 4 of 5
speculative.” Manning, 56 F.3d at 1194. Wilson claims that he was prejudiced by
the delay because the government gained two cooperating witnesses, some
electronic evidence was lost, and two of the government’s witnesses exhibited
lapses in memory that purportedly prevented Wilson from impeaching them.
However, neither of the cooperating witnesses Wilson identifies testified at trial,
and one of them actually died prior to trial, prejudicing the government rather than
Wilson. He has also failed to identify anything from the spoliated electronic
evidence that would have aided his defense. Wilson’s theory as to how he would
have been able to impeach the government’s witnesses, and how that would have
affected the outcome of the trial, is at best speculative.
Given Wilson’s contributions to the delay and his inability to show actual
prejudice, the Barker factors collectively weigh in the government’s favor. The
district court therefore properly denied Wilson’s motion to dismiss the indictment.
2. As for Wilson’s claims of evidentiary error, he must show that the district
court abused its discretion (or committed plain error where Wilson failed to object
below) in order to prevail. He has not made such a showing. Agent Healy did not
impermissibly opine on the ultimate legal issue by using the term “fraud” in his
testimony. As this court has noted, “[i]t is sometimes impossible for an expert to
render his or her opinion on a subject without resorting to language that recurs in
the applicable legal standard.” United States v. Diaz, 876 F.3d 1194, 1998 (9th
Pet. App. 4

(5 of 9)
Case: 18-50333, 02/09/2021, ID: 11997202, DktEntry: 65-1, Page 5 of 5

Page 5 of 5
Cir. 2017). Nor did Agent Healy improperly “spoon-feed” the government’s
interpretation of the evidence to the jury—he merely offered modus operandi
testimony that this court has consistently held permissible. See United States v.
Gil, 58 F.3d 1414, 1422 (9th Cir. 1995). The district court also did not abuse its
discretion by admitting the “Gribble Tapes,” particularly after having
independently verified their reliability by listening to them and comparing their
contents to testimony given at trial. The FTC press release, the email from Tony
Brown, and testimony about customer complaints were properly admitted for the
non-hearsay purpose of showing Wilson’s state of mind—specifically, his
knowledge that his companies were engaging in conduct that was considered
fraudulent. Finally, Wilson concedes that, under binding circuit precedent, the
district court acted within its discretion in reopening the evidence after the
defense’s Rule 29 motion. See United States v. Suarez-Rosario, 237 F.3d 1164,
1167 (9th Cir. 2001).
AFFIRMED.

Pet. App. 5

Case: 18-50333, 04/19/2021, ID: 12078578, DktEntry: 69, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
APR 19 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
MARK ELDON WILSON, AKA Marc
Eldon Wilson,

No.

18-50333

D.C. No.
2:04-cr-00476-SJO-1
Central District of California,
Los Angeles
ORDER

Defendant-Appellant.
Before: CALLAHAN and WATFORD, Circuit Judges, and RAKOFF,* District
Judge.
The panel unanimously votes to deny the petition for panel rehearing. Judge
Callahan and Judge Watford vote to deny the petition for rehearing en banc, and
Judge Rakoff so recommends. The full court has been advised of the petition for
rehearing en banc, and no judge requested a vote on whether to rehear the matter
en banc. Fed. R. App. P. 35. The petition for panel rehearing and rehearing en
banc, filed March 25, 2021, is DENIED.

*

The Honorable Jed S. Rakoff, United States District Judge for the
Southern District of New York, sitting by designation.
Pet. App. 6

Case 2:04-cr-00476-SJO Document 113 Filed 12/04/17 Page 1 of 5 Page ID #:561

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CRIMINAL MINUTES - GENERAL

Case No.

Date

CR 04-00476 SJO

Present: The Honorable
Interpreter

December 4, 2017

S. James Otero

Not Required

Victor Paul Cruz

Not Present

Ranee A. Katzenstein, Frances S. Lewis

Deputy Clerk

Court Reporter/Recorder, Tape No.

Assistant U.S. Attorney

U.S.A. v. Defendant(s):
Mark Eldon Wilson

Proceedings:

Present Cust. Bond
Not

Attorneys for Defendants:

x

Kay Otani, DFPD

Present App. Ret.
Not

x

(IN CHAMBERS): ORDER DENYING DEFENDANT'S MOTION TO COMPEL DISCOVERY [Docket
No. 95]

This matter is before the Court on Defendant Mark Eldon Wilson's ("Defendant") Motion to Compel Discovery
("Motion"), filed on September 5, 2017. The United States ("Government") filed its Opposition to Defendant's
Motion ("Opposition") on September 11, 2017 and a Supplemental Opposition to Defendant's Motion on September
12, 2015 ("Supplemental Opposition"). Defendant replied to the Opposition ("Reply") on September 18, 2017. For
the following reasons, Defendant's Motion to Compel is DENIED.
I.

BACKGROUND
A.

Factual Background

On August 4, 2004, Defendant was charged in a 14-count First Superseding Indictment for mail and wire fraud
(First Superseding Indictment ("FSI"), ECF No. 12.) Specifically, the FSI charges Defendant with operating a
fraudulent telemarketing scheme in Canada targeting senior citizens in the United States. (FSI 2.) Defendant's trial
is set for February 20, 2018.
B.

Procedural Background and the Instant Motion

On June 14, 2000, the Government obtained a complaint and arrest warrant against Defendant. (Mot. 2, ECF No.
95.) In August 2000, the Government submitted a Mutual Legal Assistance Treaty ("MLAT") Request to Canada
to obtain evidence about Defendant. (Opp'n 4, ECF No. 97.) The MLAT Request was granted in February 2001.
(Opp'n 4-5.) Defendant unsuccessfully challenged the legality of the search warrant in the Canadian courts, and
then appealed the decision and obtained a stay to prevent the transmission of the evidence to the United States.
(Opp'n 5.) The stay continued until May 2013, when an appellate court in Canada rejected Defendant's final
challenge to the production of the materials. (Opp'n 5.)
On April 28, 2004, the Government obtained an indictment against Defendant, and then filed the FSI against
CR-11 (09/98)

CRIMINAL MINUTES - GENERAL

Page 1 of 5

Pet. App. 7

Case 2:04-cr-00476-SJO Document 113 Filed 12/04/17 Page 2 of 5 Page ID #:562

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CRIMINAL MINUTES - GENERAL

Defendant on August 4, 2004. (Mot. 2.) In January 2007, Defendant was arrested in Canada. (Mot. 2.) The United
States Government arrested Defendant in March 2017 and he remains in custody today. (Mot. 2-3.)
On July 26, 2017, Defendant sent the Government a discovery request, which included a request for "[a]ll materials
explaining or relating to the government's failing to arrest or prosecute Mr. Wilson during the period from June
2000, when the complaint was filed, to April 2004, when the indictment was filed." (Mot. 3.) On August 11, 2017,
the Government responded to this request:
The government is not aware of any legal authority for your request for discovery for the period between
the filing of the complaint in June 2000 and the filing of the indictment in April 2004. Federal Rule of
Criminal Procedure 16(a)(2) exempts from discovery government documents made in connection with
investigating or prosecuting the case, and the case was indicted well within the statute of limitations. There
is no presumption of prejudice for preindictment decisions, and until defendant can make a showing of
actual prejudice, the reasons behind the timing of the government’s decision to indict are irrelevant. See,
e.g., United States v. Corona-Verbera, 509 F.3d 1105, 1112-13 & n.2 (9th Cir. 2007) (“The second prong
of the test applies only if [defendant] has demonstrated actual prejudice.”); United States v. Suchecki, 995
F.2d 234, 1993 WL 188368 (9th Cir. 1993) (unpublished) (affirming denial of discovery into pre-indictment
time period because defendant failed to show actual prejudice).
If you believe that defendant experienced actual, non-speculative prejudice during the pre-indictment time
period, or if you are aware of authority supporting your request for discovery regarding the preindictment
time period, please provide us with that information.
(Mot. 3.) The parties have met and conferred three times via email regarding this issue. (Mot. 4.) On August 16,
2017, Defendant emailed the Government its position that the Sixth Amendment speedy trial rights attached when
the complaint was filed in 2000, to which the Government responded that delay prior to the indictment is irrelevant
to the attachment of speedy trial rights. (Mot. 4.) The Defendant sent the Government a copy of this Motion on
September 1, 2017, but the Government's position remained the same. (Mot. 4.)
Defendant moves to compel discovery relating to the Government's failure to arrest or prosecute Defendant during
the period between the time the complaint was filed in June 2000 to when the indictment was filed in April 2004.
(Mot. 1, ECF No. 95.) Defendant contends that the discovery is necessary to support a dispositive motion for delay
in his prosecution that violated his Sixth Amendment speedy trial rights. (Mot. 1.)
The Government opposes Defendant's Motion on the grounds that: (1) Fed. R. Crim. P. 16(a)(2) exempts the
materials from discovery (Opp'n 10-11); (2) Fed. R. Crim. P. 16(a)(1) does not require discovery of this information
because it is not material to Defendant's case in chief (Opp'n 11-12); and (3) the requested discovery is not material
to any Sixth Amendment or Due Process Speedy Trial claims. (Opp'n 12-17.)
The Court will consider each of Defendant's arguments in turn.

II.

DISCUSSION

CR-11 (09/98)

CRIMINAL MINUTES - GENERAL

Page 2 of 5

Pet. App. 8

Case 2:04-cr-00476-SJO Document 113 Filed 12/04/17 Page 3 of 5 Page ID #:563

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CRIMINAL MINUTES - GENERAL

A.

Legal Standard

Defendant seeks the information pursuant to Federal Rule of Criminal Procedure ("Rule") 16 and Brady v.
Maryland and its progeny. (Mot. 1.) Rule 16 requires, in relevant part, that, upon a defendant's request, the
government must disclose documents that are "within the government's possession, custody, or control" and
"material to preparing the defense." See Fed. R. Crim. P. 16(a)(1)(E)(i). "To receive discovery under this rule, the
defendant must make a threshold showing of materiality, which requires a presentation of facts which would tend
to show that the Government is in possession of information helpful to the defense." United States v. Doe , 705 F.3d
1134, 1151 (9th Cir. 2013) (citation and quotation marks omitted); see also United States v. Mandel, 914 F.2d 1215,
1219 (9th Cir. 1990) (“Neither a general description of the information sought nor conclusory allegations of
materiality suffice; a defendant must present facts which would tend to show that the Government is in possession
of information helpful to the defense.”).
Under Brady and its progeny, the "suppression by the prosecution of evidence favorable to an accused upon request
violates due process where the evidence is material either to guilt or to punishment, irrespective of the good faith
or bad faith of the prosecution." Brady v. Maryland, 373 U.S. 83, 87 (1963). To make out a Brady claim, there
must be "(1) evidence that is exculpatory or impeaching (2) that is suppressed by the state and (3) resulting
prejudice." Aguilar v. Woodford, 725 F.3d 970, 982 (9th Cir. 2013) (citing Strickler v. Greene, 527 U.S. 263, 28182 (1999)). "Evidence is material for Brady purposes if a 'reasonable probability' exists that the result of a
proceeding would have been different had the government disclosed the information to the defense. A reasonable
probability is one that is 'sufficient to undermine confidence in the outcome' of either the defendant's guilty plea
or trial." United States v. Lucas, 841 F.3d 796, 807 (9th Cir. 2016) (internal citations omitted). "Any evidence that
would tend to call the government's case into doubt is favorable for Brady purposes." Milke v. Ryan, 711 F.3d 998,
1012 (9th Cir. 2013).
B.

Analysis
1.

Materiality of Documents Under Rule 16(a)(1)(E)

The requested records and information must be "material to preparing the defense" in order to be discoverable under
Rule 16(a)(1)(E). Defendant argues that the Discovery is material to a dispositive motion to dismiss for delay in
prosecution, because his Sixth Amendment right to a speedy trial attached when the Government filed the
complaint on June 14, 2000. (Mot. 6.) The Government argues that Defendant's speedy trial right did not attach
until the Government issued a formal indictment against Defendant on April 28, 2004. (Opp'n 12-19.)
The Sixth Amendment right to a speedy trial attached when the Defendant became the "accused." U.S. CONST.
amend. VI. The Supreme Court has held that a defendant becomes the "accused" and thus speedy trial rights attach
upon "either a formal indictment or information or else the actual restraints imposed by arrest and holding to answer
a criminal charge." Marion, 404 U.S. 307, 320 (1971). The Supreme Court "decline[d] to extend that reach of the
[Sixth] [A]mendment to the period prior to arrest." Id. at 321.
The Government cites two Supreme Court decisions –United States v. Lovasco, 431 U.S. 783 (1977) and United
States v. Loud Hawk, 474 U.S. 302 (1986) –to reiterate its proposition that Defendant's speedy trial rights did not
attach when the Government filed its complaint against Defendant in June 2000. (Opp'n 13-14.) Defendant argues
CR-11 (09/98)

CRIMINAL MINUTES - GENERAL

Page 3 of 5

Pet. App. 9

Case 2:04-cr-00476-SJO Document 113 Filed 12/04/17 Page 4 of 5 Page ID #:564

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CRIMINAL MINUTES - GENERAL

that Lovasco and Loud Hawk are inapposite, because they fail to address whether a defendant's speedy trial rights
attached upon the filing of charging documents other than an indictment. (Mot. 8-9.) Defendant correctly points
out that the Supreme Court has not specifically indicated whether the filing of a complaint constitutes an
"accusation" sufficient to trigger the Sixth Amendment speedy trial right. (Mot. 9.) Defendant also contends that
the Supreme Court has held that speedy trial rights are invoked, absent charges, by "indictment, information, or
other formal charge," which includes a criminal complaint. (Mot. 6) (quoting Marion, 404 U.S. at 320-21.)
Defendant relies on two Ninth Circuit opinions –United States v. Terrack, 515 F.2d 558, 559 (9th Cir. 1975) and
Northern v. United States, 455 F.2d 427, 429 (9th Cir. 1972) –to support the argument that his Sixth Amendment
speedy trial rights attached when the Government filed its complaint. (Mot. 1.) However, the Ninth Circuit is
divided as to whether the mere filing of a complaint commences the constitutional speedy trial time frame.
Compare Benson v. United States, 402 F.2d 576, 579 (9th Cir. 1968) ("We have held that the right to a speedy trial
guaranteed by the Sixth Amendment does not arise until a formal complaint is lodged against the defendant."));
United States v. Gonzalez-Avina, 234 F. App'x 758, 759 (9th Cir. 2007) (assuming without deciding that the pre-trial
delay should be measured from the filing of the federal complaint for purposes of a Sixth Amendment speedy trial
claim) with Arnold v. McCarthy, 566 F.2d 1377, 1382 (9th Cir. 1978) (holding that the Sixth Amendment right to
a speedy trial did not attach until the defendant was arrested and arraigned, not when the complaint was filed);
Favors v. Eyman, 466 F.2d 1325, 1327-28 (9th Cir. 1972) (holding that the Sixth Amendment right to a speedy trial
did not attach when the complaint was filed); see also Gadlin v. Cate, 2014 U.S. Dist. LEXIS 106010, 2014 WL
3734618, at *19 (C.D. Cal. Jul. 25, 2014) ("The filing of a felony complaint does not trigger a defendant's Sixth
Amendment speedy trial rights."); People v. Martinez, 22 Cal. 4th 750, 756, 94 Cal. Rptr. 2d 381, 996 P.2d 32
(2000) ("[I]n a California prosecution[,] the filing of a felony complaint, either with or without the issuance of an
arrest warrant, is insufficient to engage the federal Constitution's speedy trial protection . . . ."). As such, the Court
shall address Defendant's claim under the Due Process Clause.
Pre-indictment delay is tested by "general proscriptions of due process." Prantil v. California, 843 F.2d 314, 318
(9th Cir. 1988) (per curiam) (internal quotation marks omitted). In determining whether a pre-indictment delay
violated due process, courts apply a two-part test: (1) Petitioner must prove actual, non-speculative prejudice from
the delay; and (2) the length of the delay, when balanced against the reasons for the delay, must offend those
"fundamental conceptions of justice which lie at the base of our civil and political institutions." See United States
v. DeGeorge, 380 F.3d 1203, 1210-11 (9th Cir. 2004) (quoting United States v. Doe, 149 F.3d 945, 948 (9th Cir.
1998)); United States v. Huntley, 976 F.2d 1287, 1290 (9th Cir. 1992). A defendant claiming pre-indictment delay
carries a "heavy burden" of showing actual prejudice that is "definite and not speculative." United States v. Moran,
759 F.2d 777, 782 (9th Cir. 1985) (as amended); United States v. Butz, 982 F.2d 1378, 1380 (9th Cir. 1993).
Further, unless the petitioner can demonstrate actual prejudice, the Court "need not weigh the reasons for the delay
versus its length." See United States v. Ross, 123 F.3d 1181, 1186-87 (9th Cir. 1997) (as amended); Butz, 982 F.2d
at 1380. Here, Defendant fails to allege "actual, non-speculative prejudice" and thus has not shown that the preindictment delay violated due process. Accordingly, Defendant has not made a threshold showing of materiality
for purposes of Fed. R. Crim. P. 16(a)(1).

2.

Rule 16(a)(2) Discovery Exemption

"[R]eports, memoranda, or other internal government documents made by an attorney for the government or other
CR-11 (09/98)

CRIMINAL MINUTES - GENERAL

Page 4 of 5

Pet. App. 10

Case 2:04-cr-00476-SJO Document 113 Filed 12/04/17 Page 5 of 5 Page ID #:565

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CRIMINAL MINUTES - GENERAL

government agent in connection with investigating or prosecuting the case" are exempt from discovery. Fed. R.
Crim. Pro. 16(a)(2). The emails at issue were exchanged by a FBI Special Agent during the time she investigated
Defendant, (Mot. 2) and relate to "protected decisions by the government regarding its investigation into the
defendant and its decision into when and how to prosecute this case" (Opp'n 2) and are thus exempt from disclosure
to Defendant under Fed. R. Crim. P. 16(a)(2).
3.

Discovery Obligations Under Brady

Defendant argues that the Government is obligated to produce Special Agent Collas' emails because they are
"material either to guilt or to punishment" under Brady (Mot. 4) and "at a minimum Brady materials for
impeachment." (Mot. 7) However, Defendant fails to allege facts suggesting the emails contain impeachment
materials or that Defendant is prejudiced by the Government's failure to produce the emails, which are both
necessary elements of a Brady claim. Accordingly, the Government is not obligated to produce the discovery
materials at issue under Brady.
III.

RULING

For the foregoing reasons, Defendant's Motion to Compel Discovery is DENIED.
IT IS SO ORDERED.

CR-11 (09/98)

CRIMINAL MINUTES - GENERAL

Page 5 of 5

Pet. App. 11

Case 2:04-cr-00476-SJO Document 139 Filed 03/13/18 Page 1 of 9 Page ID #:1048

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CRIMINAL MINUTES - GENERAL
REDACTED

Case No.

CR 04-00476 SJO

Present: The
Honorable
Interpreter

Date

March 13, 2018

S. James Otero
Not Required

Victor Paul Cruz

Not Present

Not Present

Deputy Clerk

Court Reporter/Recorder, Tape

Assistant U.S. Attorney

U.S.A. v. Defendant(s):
Mark Eldon Wilson

Present
Not

Cust. Bond
xx

Attorneys for Defendants: Present App. Ret.
Kay Otani

Not

xx

PROCEEDINGS (in chambers): ORDER DENYING DEFENDANT'S MOTION TO DISMISS
INDICTMENT FOR SPEEDY TRIAL VIOLATIONS [Docket No. 116]
This matter is before the Court on Defendant Mark Eldon Wilson's ("Defendant") Motion to Dismiss Indictment
for Speedy Trial Violations ("Motion"), filed on January 15, 2018. The United States ("Government") filed its
Opposition to Defendant's Motion ("Opposition") on January 23, 2018. Defendant replied to the Opposition
("Reply") on January 29, 2018. For the following reasons, Defendant's Motion is DENIED.
I.

FACTUAL AND PROCEDURAL BACKGROUND

On August 4, 2004, Defendant was charged in a 14-count First Superseding Indictment for mail and wire fraud.
(First Superseding Indictment ("FSI"), ECF No. 12.) Specifically, the FSI charges Defendant with operating a
fraudulent telemarketing scheme in Canada targeting senior citizens in the United States. (FSI 2.) Defendant's trial
is set for March 20, 2018.
On June 14, 2000, the Government filed a complaint and issued an arrest warrant against Defendant. (Mot. 1, ECF
No. 116.) In August 2000, the Government submitted a Mutual Legal Assistance Treaty ("MLAT") Request to
Canada to obtain evidence about Defendant. (Mot. 1.) The MLAT Request was granted in February 2001 and the
Royal Canadian Mounted Police ("RCMP") executed the MLAT search warrant on Defendant's businesses that
same month. (Mot. 2.)
On January 28, 2002, the Supreme Court of British Columbia held that the evidence seized under the February 2001
MLAT search warrant should be forwarded to the United States. (Mot. 2.) Defendant unsuccessfully challenged
the legality of the search warrant in the Canadian courts, and then appealed the decision and obtained a stay to

CRIMINAL MINUTES - GENERAL

Page 1 of 9

Pet. App. 12

Case 2:04-cr-00476-SJO Document 139 Filed 03/13/18 Page 2 of 9 Page ID #:1049

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CRIMINAL MINUTES - GENERAL
REDACTED

prevent the transmission of the evidence to the United States.1 (Opp'n 4-5, ECF No. 119.) Defendant's MLAT
appeal was dismissed on February 18, 2010. (Mot. 4.) The stay continued until May 2013, when an appellate court
in Canada rejected Defendant's final challenges to the production of materials, but prohibited the forwarding of
attorney-client communications. (Opp'n 5-6; Mot. 4). On July 2, 2013, the Government received what was left of
the non-spoliated evidence.2 (Opp'n 6.)
Meanwhile, the Government continued its investigation, conducting dozen of interviews from 2000 through 2004.
(Opp'n 6.) On April 28, 2004, the Government filed its indictment, and on August 4, 2004, the Government filed
the FSI. (Mot. 3.) In July of 2004, the Government attempted to arrest Defendant in the United States of America.
(Opp'n 7.) However, by July of 2005, the Government's attempts remained unsuccessful and the U.S. Attorney's
Office initiated the extradition process with the U.S. Department of Justice's Office of International Affairs ("OIA").
(Opp'n 7.)
The Government certified the formal record of the case ("ROC") on January 10, 2007, which was sent to Canada,
along with a diplomatic note, on January 11, 2007. (Opp'n 8.) On January 12, 2007, Defendant was arrested in
Canada and later released on bail. (Mot. 2.) For the next ten years, Defendant fought extradition. (Opp'n 8.)
Defendant efforts proved unsuccessful, and on February 9, 2017, the Supreme Court of Canada dismissed his final
extradition appeal. (Mot. 3-5.)
1.

First Extradition Hearing

Defendant's first extradition hearing was originally set for November 2007. (Opp'n 9.) However, at Defendant's
requests, the hearing was continued to January 2008, then to January 2009, again to June 2009, and ultimately to
September 8, 2009. (Opp'n 9.) Canada then asked for an adjournment until October 2009 for the purposes of
clarifying evidentiary aspects of the ROC. (Opp'n 9.) The Government provided the material via a supplemental
ROC, which was certified on October 13, 2009. (Opp'n 9.) Soon thereafter, Defendant requested another
continuance, which was denied. (Opp'n 9.) During the extradition hearing, Canadian government witnesses
allegedly displayed "memory lapses due to passage of time." (Mot. 3.) On December 17, 2009, the Supreme Court
of British Columbia ordered Defendant committed to extradition to the United States. (Mot. 4.) Defendant
immediately appealed. (Opp'n 9.)
2.

Appeals to Minister and Court of Appeals

For extradition from Canada, the Canadian government must obtain both a committal and surrender order from the
Minister. (Opp'n 9.) Defendant sought three extensions of time during his submissions to the Minister, and the
On March 12, 2002, the Canadian Government appealed the portion of the February 2001 MLAT search warrant
ruling that required giving copies of the evidence to Defendant. (Mot. 2-3.) It was not until April 16, 2010 that
the Court of Appeal for British Columbia dismissed the Canadian Government's appeal for abandonment. (Mot. 4.)
For reasons discussed in section 3(b)., infra, the time accrued while the appeal was pending has no bearing on
Defendant's allegations of a speedy trial right violation.
1

On November 7, 2012, the Canadian Government sent a letter to the Supreme Court of British Columbia noting
that due to the outdated technology used on some of the seized materials, certain items could no longer be opened
and, as a result, would not be transferred to the United States. (Mot., Ex. D.)

2

CRIMINAL MINUTES - GENERAL

Page 2 of 9

Pet. App. 13

Case 2:04-cr-00476-SJO Document 139 Filed 03/13/18 Page 3 of 9 Page ID #:1050

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CRIMINAL MINUTES - GENERAL
REDACTED

Minister ultimately issued a surrender order in December of 2010. (Opp'n 10.) Additionally, Defendant extended
the appeal of his committal order from May of 2011 to September of 2011. (Opp'n 10.) On December 16, 2011,
the Court of Appeal for British Columbia reversed the lower court's committal order – vacating the surrender order
– and directed the lower court to hold a new extradition hearing. (Opp'n 10.)
3.

Second Extradition Hearing

The lower court set the new extradition hearing for October of 2012. (Opp'n 10.) During the intermediary, the
Government submitted its third and fourth supplemental ROC in July of 2012 and September of 2012, respectively.
(Opp'n 10.) In September of 2012, Defendant unsuccessfully attempted to adjourn the October 2012 hearing.
(Opp'n 10.) Undeterred, Defendant applied for another adjournment, which he received, effectively postponing the
hearing until February 2013. (Opp'n 10.) During the adjournment, the Government submitted a fifth supplemental
ROC and on February 19, 2013, the hearing concluded. (Opp'n 11.) On November 8, 2013, the lower court again
ordered that Defendant be committed to extradition to the United States. (Opp'n 11.)
4.

Appeals to Minister and Court of Appeals

Defendant again appealed his committal order, making numerous submissions with the Minister challenging his
surrender. (Opp'n 11.) In the process, Defendant sought and obtained numerous extensions of time to make said
submissions. (Opp'n 11.) In July of 2014, the Minister issued a surrender order. (Opp'n 11.) Nevertheless,
Defendant sought reconsideration from the Minister and moved to continue his appellate hearing set for February
2015. (Opp'n 11.) The Court of Appeal for British Columbia granted Defendant's request and re-scheduled the
hearing for May of 2015. (Opp'n 11). In April of 2015, Defendant requested court-appointed counsel, which he
received; the hearing was continued to January 2016. (Opp'n 11.) During the continuance, the Government
submitted its sixth supplemental ROC and in October of 2015, the Minister re-confirmed its surrender order from
July of 2014. (Opp'n 12.) On July 27, 2016, the Court of Appeal for British Columbia affirmed the lower court's
November 2013 committal order and the Minister's July 2014 surrender order. (Opp'n 12.) Defendant's subsequent
appeal was denied by the Supreme Court of Canada on February 9, 2017. (Mot. 5.) Thereafter, Defendant was
extradited to the United States where he was arrested by the Government on March 1, 2017, in the Central District
of California. (Mot. 5.)
II.

DISCUSSION
A.

Legal Standard

The Sixth Amendment guarantees that "[i]n all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial." U.S. Const. amend. VI. The speedy trial right is "amorphous, slippery, and necessarily relative
.... consistent with delays and depend[ent] upon circumstances." Vermont v. Brillon, 556 U.S. 81, 89 (2009)
(quoting Barker v. Wingo, 407 U.S. 514, 530 (1972)) (internal quotation marks omitted) (brackets in original). Once
the accused demands a speedy trial, the government must "make a 'diligent, good-faith effort' to bring the accused
before the court for trial." United States v. Sandoval, 990 F.2d 481, 484 (9th Cir. 1993) (citation omitted). To
determine whether a defendant's Sixth Amendment right to a speedy trial has been violated, courts balance the
following four factors: (1) the length of the delay; (2) the reason for the delay; (3) the extent to which the defendant
asserted his right; and (4) whether the defendant suffered prejudice as a result of the delay. See Barker, 407 U.S.

CRIMINAL MINUTES - GENERAL

Page 3 of 9

Pet. App. 14

Case 2:04-cr-00476-SJO Document 139 Filed 03/13/18 Page 4 of 9 Page ID #:1051

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CRIMINAL MINUTES - GENERAL
REDACTED

at 530; United States v. Mendoza, 530 F.3d 758, 762 (9th Cir. 2008). The four factors "must be considered together
with such other circumstances as may be relevant." Barker, 407 U.S. at 533.
B.

Defendant's Speedy Trial Motion is Denied
1.

Pre-Indictment Delay

The Court denies the Motion as to the three years and ten and one-half months that elapsed between the filing of
the complaint on June 14, 2000, and the filing of the Indictment on April 28, 2004. (Mot. 1-3.) The Court has
already held that Defendant's challenge to the pre-indictment time period is analyzed under "general proscriptions
of due process," not the Sixth Amendment. (See Order Den. Def. Motion to Compel Discovery 4, ECF No. 113)
(citing Prantil v. California, 843 F. 2d 314, 318 (9th Cir. 1988) (per curium) (internal quotation marks omitted)).
In determining whether a pre-indictment delay violated due process, courts apply a two-part test: (1) Petitioner must
prove actual, non-speculative prejudice from the delay; and (2) the length of the delay, when balanced against the
reasons for the delay, must offend those "fundamental conceptions of justice which lie at the base of our civil and
political institutions." See United States v. DeGeorge, 380 F.3d 1203, 1210-11 (9th Cir. 2004) (quoting United
States v. Doe, 149 F.3d 945, 948 (9th Cir. 1998)); United States v. Huntley, 976 F.2d 1287, 1290 (9th Cir. 1992).
A defendant claiming pre-indictment delay carries a "heavy burden" of showing actual prejudice that is "definite
and not speculative." United States v. Moran, 759 F.2d 777, 782 (9th Cir. 1985) (as amended); United States v.
Butz, 982 F.2d 1378, 1380 (9th Cir. 1993). Further, unless the petitioner can demonstrate actual prejudice, the Court
"need not weigh the reasons for the delay versus its length." See United States v. Ross, 123 F.3d 1181, 1186-87
(9th Cir. 1997) (as amended); Butz, 982 F.2d at 1380.
Defendant alleges the delay caused the loss of witness memory at his first extradition hearing and resulted in the
accrual of Government witnesses. (Mot. 3.) However, in order to base the claim on "diminished memories,"
Defendant "must show that the loss of testimony meaningfully has impaired his ability to defend himself" using only
"definite and nonspeculative evidence." United States v. Huntley, 976 F.2d 1287, 1290 (9th Cir.1992). Defendant
has failed to demonstrate that the loss of memory or the Government's new witnesses resulted in "actual, nonspeculative prejudice," and thus has not shown that the pre-indictment delay violated due process. Defendant also
alleges the delay caused evidence in the Government's possession to spoliate, "depriv[ing] the defense of the ability
to contest and impeach regarding [its] contents." (Reply 6.) To make out a due process claim based on the
destruction of evidence, the "evidence must both possess an exculpatory value that was apparent before the evidence
was destroyed, and be of such a nature that the defendant would be unable to obtain comparable evidence by other
reasonably available means." California v. Trombetta , 467 U.S. 479, 489 (1984). If the evidence is only potentially
exculpatory, as opposed to apparently exculpatory, the defendant must show the evidence was destroyed in bad
faith." Arizona v. Youngblood , 488 U.S. 51, 58 (1988). Defendant has failed to establish that any spoliated
evidence was exculpatory or destroyed in bad faith, and thus the Court declines to find that Defendant was denied
his due process rights.
2.

Delay Between Extradition Request and the Present

This Court also denies the Motion as to the twelve years and ten months that elapsed between his Indictment and
the present. Defendant cannot contest the more than ten years he fought extradition between his January 15, 2007
arrest in Canada to his arrival in the United States on March 1, 2017. (Mot. 3-5.) See United States v. Manning,
CRIMINAL MINUTES - GENERAL

Page 4 of 9

Pet. App. 15

Case 2:04-cr-00476-SJO Document 139 Filed 03/13/18 Page 5 of 9 Page ID #:1052

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CRIMINAL MINUTES - GENERAL
REDACTED

56 F.3d 1188, 1195 (9th Cir. 1995) (where defendant "knew of the indictment against him and . . . 'resisted all
efforts to bring him to the United States," "[t]hese determinations are sufficient to support the finding that
[defendant] waived his speedy trial rights . . . . [Defendant] cannot avoid a speedy trial by forcing the government
to run the gauntlet of obtaining formal extradition and then complain about the delay that he has caused by refusing
to return voluntarily to the United States") (citation omitted); see also Sandoval, 990 F.2d at 483 (holding that a
finding that defendant "purposely absented himself from the proceedings" is sufficient to establish waiver of speedy
trial rights). Defendant's numerous appeals from January of 2007 to March of 2017 demonstrate the requisite
"resist[ance] of all efforts" showing needed to waive a speedy trial right.3 Manning, 56 F. 3d at 1195.
Accordingly, the Court's Barker analysis will focus on the two years, eight and one-half months between the
Government's filing of the indictment on April 28, 2004 and the Government's formal request for extradition in
January 2007.
3.

Delay Between Indictment and Extradition Request
a.

Length of Delay

The length of the delay is a "threshold" factor, and a sufficiently lengthy delay "necessitates an examination of the
other three factors." United States v. Sears, Roebuck & Co., Inc., 877 F.2d 734, 739 (9th Cir.1989). For speedy
trial claims, the length of the delay is usually measured from the time of the indictment to the time of the trial.
See United States v. Gregory, 322 F.3d 1157, 1162 (9th Cir. 2003). The Court's analysis focuses on the two years,
eight and one-half months between the filing of the indictment and the Government's extradition request.
(See, e.g., Mot. 2-5.) A delay of almost three years is sufficiently lengthy to trigger an inquiry into the other factors,
to which the Court now turns. See Gregory, 322 F.3d at 1161–62.
b.

Reason for Delay

The second factor, the reason for delay, is "the focal inquiry." Sears, 877 F.2d at 739. "If the government can show
that the delay was wholly justifiable because it proceeded with reasonable diligence, the defendant's speedy trial
claim generally cannot succeed in the absence of a showing of actual prejudice resulting from the delay."
Alexander, 817 F.3d at 1182 (citing Doggett v. United States, 505 U.S. 647, 656 (1992)). "If the government
intentionally delayed or negligently pursued the proceedings, however, prejudice may be presumed, and its weight
in the defendant's favor depends on the reason for the delay and the length of the delay." Alexander, 817 F.3d at
1182 (citations omitted). The Court finds that the Government diligently pursued extradition.
Defendant argues that "the two years, eight and one-half months from filing the indictment to [Defendant]'s arrest
were solely the fault of the government," because he had "no control over when the government would arrest him,"
and there is "no evidence that [Defendant] sought to avoid detection by either Canadian or U.S. authorities."
(Mot. 8-10.) Defendant contends that the Government was negligent, because he was not avoiding detection and
the Government made no serious effort to find him. (Mot. 10.) Furthermore, Defendant argues the Government
caused delay by appealing the MLAT order, objecting to evidence later found admissible, and deferred prosecution

By utilizing the Canadian courts' appeal process from 2007 through 2017, Defendant was able to acquire multiple
extradition hearings and have his case reviewed by the Minister and Court of Appeals on several occasions.
(See Opp'n 9-11.)
3

CRIMINAL MINUTES - GENERAL

Page 5 of 9

Pet. App. 16

Case 2:04-cr-00476-SJO Document 139 Filed 03/13/18 Page 6 of 9 Page ID #:1053

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CRIMINAL MINUTES - GENERAL
REDACTED

to "exert pressure on a potential cooperating witness" who ultimately proffered to the Government on April 7, 2010.
(Mot. 11.)

Defendant had no control over when he would be arrested, nor did he seek to avoid detection by Canada or the
Government. However, Defendant's conclusion that his visibility warrants a finding of negligence by the
Government is flawed. In citing to Doggett for this proposition, Defendant relies on a factual situation distinct from
the instant case. In Doggett, the Supreme Court held that an eight-and-a-half year lag between indictment and arrest
violated Doggett's right to a speedy trial. 505 U.S. at 647. Like Defendant, Doggett "lived openly under his own
name, and stayed within the law" after being indicted. Id. However, unlike Defendant, after Doggett left the
States,"the United States, never followed up on his status ... and made no further attempt to locate him." Id.
Furthermore, Doggett "did not know of his indictment before his arrest." Id. Here, the Government monitored
Defendant's status and pursued efforts to arrest Defendant in the United States.4 (Mot. 19-20.) Additionally, by
his own admission, Defendant was acutely aware of having been indicted. (See Hseih Decl. ¶ 7, Ex. I, ECF 119-3.)
Thus, Defendant's argument premised on his visibility to the Government is unpersuasive.
Additionally, Defendant argues the Government did not actively seek the Defendant's arrest between July 4, 2005
and March 30, 2006. (Sealed Exhibits ISO Motion ("Sealed Doc."), Ex. G, 530, ECF No. 131-1.) The Government
concedes that it is at most responsible for this time period, as well as the three months between the return of the
Indictment and when the Government obtained approval to effectuate Defendant's arrest.5 (Opp'n 20.) However,
Defendant has not shown this amounts to a lack of diligence by the Government. United States v. Beamon, 992 F.2d
1009, 1013 (9th Cir. 1993) ("the court considers the extent to which the delay exceeds the threshold point in light
of the degree of diligence by the government"). And the Government has shown continued diligence in its
prosecutorial efforts since March 2006.6 See Cristanelli v. U.S. Lines, 74 F.R.D. 590, 593 (C.D. Cal. 1977)
("[w]here plaintiff is presently prosecuting a claim with reasonable diligence, an action cannot be dismissed simply
because at some earlier time plaintiff failed to act with diligence.") Here, Defendant has shown neither actual

The Government contends that "within three months of the April 28, 2004, indictment [it] worked with law
enforcement to attempt to arrest [D]efendant." (Opp'n 19.) These efforts included a July 2004 approval to "secure
defendant's presence in the United States to effectuate his arrest," through "recorded phone calls and emails until
at least March 2005." (Mot. 19.) In July of 2005, the Government concluded these efforts and began to draft its
extradition request. (Mot. 20.)
4

However, Defendant's "speedy trial claim generally cannot succeed in the absence of a showing of actual prejudice
resulting from the delay." Alexander, 817 F.3d at 1182 (citing Doggett, 505 U.S. at 656). For reasons discussed
in section 3(d), infra, Defendant has not shown that he suffered actual prejudice from the three-month delay
between April 28, 2004 to July 2004, nor from the delay of eight to nine months between July 2005 to March 2006.
5

For example, the Government submitted its draft extradition request to OIA in March of 2006. (Opp'n 20.) OIA
then sent a revised draft to Canada in August of 2006 after exchanging edits with the Government. (Opp'n 20.)
Additionally, the Government certified the formal record of the case in January of 2007, and Defendant was arrested
several days later. (Opp'n 20.)
6

CRIMINAL MINUTES - GENERAL

Page 6 of 9

Pet. App. 17

Case 2:04-cr-00476-SJO Document 139 Filed 03/13/18 Page 7 of 9 Page ID #:1054

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CRIMINAL MINUTES - GENERAL
REDACTED

prejudice nor a lack of diligence by the Government during this nearly nine-month time period, and the Court will
not consider the delay during this time frame presumptively prejudicial.7
Defendant also cites to Mendoza, which is factually distinct from the instant case. In Mendoza, "[a]fter the
indictment, the government put a warrant out on the law enforcement database ... [t]he warrant was the only attempt
the government made to apprehend [defendant]." Mendoza, 530 F. 3d at 762 (emphasis added). In holding this was
not enough to rebut a speedy trial claim, the Ninth Circuit stated, "[i]f, in this case, the government had pursued
[Defendant] with reasonable diligence, his speedy trial claim would have failed.” Id. (quoting Doggett, 505
U.S. at 656). Here, the Government maintained "reasonable diligence" in their continuous pursuit of Defendant.
Defendant argues the Government caused a period of delay by "appeal[ing] the Supreme Court of British
Columbia's MLAT [search warrant] order because it did not want to provide [Defendant] copies of documents it
obtained through the MLAT [search warrant]," and this resulted in an appeal that "was not dismissed until April
16, 2010." (Mot. 8.) However, this appeal addresses the release of documents, not Defendant's extradition, and
did not affect Defendant's speedy trial rights. (See Mot. 2-3) ("The Canadian Government appealed the portion of
the MLAT ruling that required giving copies of the evidence to Mr. Wilson").
Defendant's argument that the Government caused delay by "object[ing] to evidence that the appellate court later
found admissible," also lacks merit, because the referenced proceedings fall outside the April 28, 2004 to January
of 2007 period under review. (See Mot. 9.) ("The government also caused the additional one year, eight month
delay to December 16, 2011.") Similarly flawed is Defendant's argument that the Government deferred prosecution
to obtain a cooperating witness. The witness in question, Ms. Carrie Hope ("Ms. Hope"), was not arrested until
January of 2007. (Mot. 11.) She did not proffer to the Government until April 7, 2010, well outside the period
under review here. (Mot. 11.)
Defendant asserts that the Government is at fault for the delay between indictment and arrest, because they "had
no reasonable expectation of arresting [Defendant] through deception after it filed the indictment." (Reply 3.) In
an attempt to bolster this assertion, Defendant alleges the Government, prior to filing the Indictment, was well
aware it would not be able to apprehend Defendant in the United States; specifically, Defendant cites a 2001
Government exhibit in which Defendant stated "he didn't want to come across the border because he would be
arrested." (See Hseih Decl., Ex. E.) Prior to filing the Indictment, the Government may well have believed this.
However, upon filing the Indictment, the evidence supports the Government's renewed belief that domestic
apprehension was possible. (See Opp'n 19.)
Because the Government's efforts provide the requisite showing of "reasonable diligence" to justify the lapse of time
between Indictment and arrest, this factor does not weigh in favor of dismissal. Alexander, 817 F.3d at 1182 (citing
Doggett, 505 U.S. at 656.)

Furthermore, the Defendant's contention that "assistant U.S. attorney Ellyn Lindsay caused delays in drafting the
ROCs in this case," similarly lacks the requisite showing of prejudice. (Sealed Doc., Ex. F, 651 – 653.) The email
correspondence cited by the defense seemingly shows nothing more than general, workplace collaboration. It is
unclear how the cited evidence could even be interpreted as intentional delay or negligence in the drafting of the
ROCs. (See generally Sealed Doc., Ex. F.)
7

CRIMINAL MINUTES - GENERAL

Page 7 of 9

Pet. App. 18

Case 2:04-cr-00476-SJO Document 139 Filed 03/13/18 Page 8 of 9 Page ID #:1055

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CRIMINAL MINUTES - GENERAL
REDACTED

c.

The Extent to Which Defendant Asserted His Speedy Trial Right

The Ninth Circuit is divided on the interpretation of the third Baker factor. See United States v. Aguirre, 994 F.
2d 1454, 1457 (9th Cir. 1993) ("[t]he Speedy Trial Clause primarily protects those who assert their rights, not those
who acquiesce in the delay"); but see United States v. Corona-Verbera, 509 F.3d 1105, 1116 (9th Cir. 2007)
("because [defendant] asserted his speedy trial right only after requesting numerous continuances, we find this factor
weighs neither in favor of dismissal nor in favor of the government.") Accordingly, this factor does not weigh in
favor of dismissal.
d.

Resulting Prejudice

Finally, the amount of prejudice a defendant must show is inversely proportional to the length and reason for the
delay. See Doggett, 505 U.S. at 655-56. Defendant argues that because a "[d]elay lasting more than a year is
'presumptively prejudicial,' " he was prejudiced by the two years, eight and one-half months between the filing of
the indictment and the filing of the extradition request. (Mot. 4). "While such presumptive prejudice cannot alone
carry a Sixth Amendment claim without regard to the other Barker criteria, it is part of the mix of relevant facts,
and its importance increases with the length of delay." Doggett, 505 U.S. at 655-56 (internal citations omitted);
see also Beamon, 992 F.2d at 1013 (requiring courts to "weigh the reasons for and the extent of the delay against
the evidence of actual prejudice"). "If the government pursued [Defendant] 'with reasonable diligence from his
indictment to his arrest, his speedy trial claim would fail' unless [Defendant] can show 'specific prejudice to his
defense.' " See Corona-Verbera, 509 F.3d at 1116 (quoting Doggett, 505 U.S. at 656). "Generalized assertions of
the loss of memory, witnesses, or evidence are insufficient to establish actual prejudice." United States v. Manning,
56 F.3d 1188, 1194 (9th Cir.1995).
Even considering that memories fade, evidence spoliates,6 and witnesses and victims may have passed away in the
interim, Defendant's speedy trial claim fails because he does not demonstrate "specific prejudice." See CoronaVerbera, 509 F.3d at 1116. Rather, Defendant asserts that "the delay has caused [him] ... prejudice," because the
Government gained "a cooperating witness in Ms. Hope ... caused the loss of witness memory ... caused the loss
of electronic evidence," and gained another cooperator under a proffer agreement. (Mot. 13-14.) The Ninth Circuit
calls for proof of prejudice to be "definitive and not speculative." United States v. Moran, 759 F.2d 777, 782 (9th
Cir. 1985). Accordingly, Defendant's conclusive assertion does not sufficiently demonstrate how loss of witnesses'
memories or the lost electronic evidence actually prejudiced him. Furthermore, dismissing the instant case "could
encourage appointed counsel to delay proceedings by seeking unreasonable continuances, hoping thereby to obtain
a dismissal of the indictment on speedy trial grounds." Vermont, 556 U.S. at 93.

III.

RULING

Defendant also argues that the defense "was prejudiced by the destruction of FBI SA Collas' RCMP e-mail
account." (Sealed Doc., 1-2.) However, asserting SA Collas' emails "would have shown the extent of the joint
action between the FBI and RCMP, the transfer of information between Canada and the United States, and
government actions causing delay in prosecuting the case," is merely speculation. (Sealed Doc. 2.) Absent a
showing of actual, non-speculative prejudice, the Defendant's assertion does not persuade.
6

CRIMINAL MINUTES - GENERAL

Page 8 of 9

Pet. App. 19

Case 2:04-cr-00476-SJO Document 139 Filed 03/13/18 Page 9 of 9 Page ID #:1056

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CRIMINAL MINUTES - GENERAL
REDACTED

For the foregoing reasons, the Court DENIES Defendant's Motion to Dismiss for Speedy Trial Violations.
IT IS SO ORDERED.

CRIMINAL MINUTES - GENERAL

Page 9 of 9

Pet. App. 20

Case 2:04-cr-00476-SJO Document 191 Filed 08/13/18 Page 1 of 183 Page ID #:2128
1
1

UNITED STATES DISTRICT COURT

2

CENTRAL DISTRICT OF CALIFORNIA - WESTERN DIVISION

3

HONORABLE S. JAMES OTERO, U.S. DISTRICT JUDGE

4
5
6
7
8
9

UNITED STATES OF AMERICA,

)
)
Plaintiff,
)
)
vs.
)
)
MARK ELDON WILSON,
)
)
Defendant.
)
____________________________________ )

Case No.
CR 04-00476(A) SJO
(Pages 1 - 183)

10
11
12
13
14
15

REPORTER'S TRANSCRIPT OF TRIAL PROCEEDINGS
TRIAL DAY 6
WEDNESDAY, MARCH 28, 2018
8:36 A.M.
LOS ANGELES, CALIFORNIA

16
17
18
19
20
21
22

________________________________________________________

23

CAROL JEAN ZURBORG, CSR NO. 7921, CCRR, RMR
FEDERAL OFFICIAL COURT REPORTER
350 WEST 1ST STREET, SUITE 4311
LOS ANGELES, CALIFORNIA 90012-4565
(213) 894-3539

24
25

UNITED STATES DISTRICT COURT

Pet. App. 21

Case 2:04-cr-00476-SJO Document 191 Filed 08/13/18 Page 69 of 183 Page ID #:2196
69
1

top, right, when you get there?

2

A

Correct.

3

Q

There's a question -- let me first ask you:

4

prosecutor asked you about Mark Wilson waiving around hundred

5

dollar bills at the call center, right?

6

A

Correct.

7

Q

Now, in 1998, on December the 16th, you were asked:

8

Mark Wilson ever come into the office on George Street?"

9

your answer was, "He did, but I was never there when he did."

10

Wasn't that your answer in 1998, ma'am?

11

A

The

"Did
And

Yeah.

12

MR. DEMIK:

Thank you, ma'am.

13

THE COURT:

Thank you very much for your testimony.

14

THE WITNESS:

15

THE COURT:

Any additional witnesses?

16

MR. STERN:

No, Your Honor.

17

THE COURT:

The Government rests?

18

MR. STERN:

Subject to the admission of exhibits,

19

Thank you.

all the Government exhibits, the Government rests.

20

THE COURT:

And we will take a short recess or brief

21

recess.

22

do not discuss the case amongst yourself or with any other

23

person.

24
25

Please return at 25 to the hour.

THE COURTROOM DEPUTY:

During your absence

All rise for the jury,

please.

UNITED STATES DISTRICT COURT

Pet. App. 22

Case 2:04-cr-00476-SJO Document 191 Filed 08/13/18 Page 70 of 183 Page ID #:2197
70
1

(Out of the presence of the jury.)

2
3
4

THE COURT:

The jury has been excused.

Please have

a seat.
So the issue -- one issue is whether the defendants -- or

5

the defense will put on any witnesses, so that needs to be

6

determined.

7

discuss jury instructions.

8

the defense does not offer witnesses in the case, it appears

9

that the Court should be in a position to instruct and counsel

10
11
12
13
14
15

Separate and apart from that, we still have to
It's very early in the day, so if

should be in a position to argue today.
Mr. Demik, do you need additional time with your client at
this time?
MR. DEMIK:

Five minutes, Your Honor.

with the Court.
THE COURT:

Thank you.

We are in recess.

16

(Recess taken from 10:15 a.m. to 11:01 a.m.)

17

(Out of the presence of the jury.)

18
19
20
21
22
23
24
25

And I agree

THE COURTROOM DEPUTY:

Please come to order.

This

court is now in session.
THE COURT:
versus Wilson.

Okay.

We are back on United States

Counsel are present.

The defendant is present.

I understand that Mr. Wilson will not be calling any
witnesses, and Mr. Wilson has elected not to testify.
MR. DEMIK:

That's correct, Your Honor.

We just have a Rule 29, and the defense rests.

UNITED STATES DISTRICT COURT

Pet. App. 23

Case 2:04-cr-00476-SJO Document 191 Filed 08/13/18 Page 71 of 183 Page ID #:2198
71
1

THE COURT:

2

the discussion with your counsel.

3

You understand your right to testify, and you agree to waive

4

that right and not testify in this case; is that correct?

Mr. Wilson, I want to make sure you had

5

THE DEFENDANT:

6

THE COURT:

7
8

You have a right to testify.

Yes, I do, sir.

Okay.

Thank you.

And then the Rule 29 motion probably should be made after
we excuse the jury.

Agreed?

9

MR. DEMIK:

That's fine, Your Honor.

10

THE COURT:

And then counsel suggests that the jury

11

return at what time?

12
13

MR. STERN:

12:30?
12:30, Your Honor.

We are hoping to get

through the things we need to get through by then.

14

THE COURT:

15

Certainly.

Let's bring the jury in.

(Pause in proceedings.)

16

THE COURTROOM DEPUTY:

17

THE COURT:

18

Are you ready, Your Honor?

Yes.

(In the presence of the jury.)

19

THE COURT:

20

the alternates.

21

Please have a seat.

22

Okay.

We have the jury reassembled with

Counsel are present with the defendant.

So the Government has rested.

23

rested.

24

jury.

25

jury instructions.

The defense has also

So there will be no further evidence offered to the

I have to handle some additional legal issues, including
So the jury will be excused.

Return at

UNITED STATES DISTRICT COURT

Pet. App. 24

Case 2:04-cr-00476-SJO Document 191 Filed 08/13/18 Page 83 of 183 Page ID #:2210
83
1

testified he made all of the decisions and so forth.

2

Government is not going to be arguing, and there's no

3

likelihood the jury is going to infer from the fact that he

4

was -- first of all, where was he present?

5

in the call rooms.

6

owner of the company, and he made decisions.

7

with his wrongdoing.

8

where a mere presence instruction makes any sense.

9
10

So the

He wasn't present

They can make that argument.

He was the

He was confronted

This is not a mere -- this is not a case

THE COURT:

I'm not really disputing that.

I don't

think it hurts to give it, so the instruction will be given.

11

MR. STERN:

Thank you, Your Honor.

12

THE COURT:

And then we go to the motion, Rule 29

MR. DEMIK:

Oh, yes, Your Honor.

13

motion.

14
15

For the record,

Rule 29 motion, all counts, all elements.

16

MR. STERN:

Your Honor, the Government would oppose

17

the Rule 29 motion.

18

victim testimony, tape recordings, company insiders, and there

19

was also evidence on the mailings and wirings, and the

20

Government certainly has proved that a rational juror could

21

find beyond a reasonable doubt that defendant was guilty of

22

these crimes.

23
24
25

We believe there is ample evidence from

MR. DEMIK:

May I add one thing for the record,

THE COURT:

Yes.

Your Honor?

UNITED STATES DISTRICT COURT

Pet. App. 25

Case 2:04-cr-00476-SJO Document 191 Filed 08/13/18 Page 84 of 183 Page ID #:2211
84
1
2

MR. DEMIK:

To my recollection, no one's identified

Mr. Wilson in the courtroom.

3

THE COURT:

Mr. Stern?

4

MR. STERN:

This is true, Your Honor, but

5

everybody -- there was never any issue of identity in this

6

case, and many employees identified Mr. Wilson as their boss.

7

And I think from that, the jury can certainly infer that

8

Mr. Wilson is the person -- it was not even contested by the

9

defense.

The defendant on cross-examination said, "You don't

10

know my client, Mr. Wilson."

11

in the case.

12

So I don't think it was an issue

I have not -- I don't think it's required that there be an

13

identification, so we would submit that we certainly proved

14

that this defendant is the person who was named in the

15

indictment.

16

asked -- many employees said it was James Eldon Wilson who was

17

the owner of this company.

It was not an issue in the case.

Employees were

18

THE COURT:

Mark.

19

MR. STERN:

I'm sorry, Mark Eldon Wilson.

20

THE COURT:

As I recall, we had, let's see, Trevor

21

Dusterhoft, the former RCMP inspector who was involved in

22

serving the search warrant, he did not identify the defendant

23

in court.

24

whether she could identify the defendant is not really clear to

25

the Court, but there was no effort to ask her whether she could

We have the former shipper, Elizabeth Hjelmseth, and

UNITED STATES DISTRICT COURT

Pet. App. 26

Case 2:04-cr-00476-SJO Document 191 Filed 08/13/18 Page 85 of 183 Page ID #:2212
85
1
2

ID the defendant.
We have Michele Joly, who was a former employee, who

3

appeared, from the Court's recollection, appeared to recognize

4

him because she was looking at him during the course of the

5

trial, but there was no -- the Government never asked her

6

whether she could identify the defendant.

7

employee, Katherine Stewart, who probably could have identified

8

the defendant.

9

is the defendant who was the person who employed her.

We have the former

She was not asked if the defendant in the court

10

have Jacqueline Stone, who indicated clearly, a former

11

employee, that she could not identify Mr. Wilson.

12

I just don't understand the Government not making any

13

effort to identify the defendant.

14

MR. STERN:

15
16

Then we

Well, also, Your Honor, there were

exhibits that were admitted.
THE COURT:

Yes, but separate and apart from that, I

17

don't understand the Government not making any effort to

18

identify the defendant in court.

19

I've ever tried in state court, 101 on the checklist is

20

in-court identification, unless there was good reason not to.

21

Now, I recognize that there's other ways to identify a

22

defendant, but I have dismissed two prior cases brought by the

23

U.S. Attorney's Office where there was a failure to identify

24

the defendant in the courtroom.

25

MR. STERN:

In every single trial that

I appreciate that, Your Honor.

UNITED STATES DISTRICT COURT

Pet. App. 27

Case 2:04-cr-00476-SJO Document 191 Filed 08/13/18 Page 86 of 183 Page ID #:2213
86
1

THE COURT:

This comes, again, as somewhat of a

2

surprise because I would think that my prior motions that have

3

been granted would have circulated through the U.S. Attorney's

4

Office so that when you know when you try a case before me, you

5

put that on your checklist.

6

MR. STERN:

I appreciate that, Your Honor.

7

THE COURT:

I have taught at the NAC; identification

8

in the courtroom is 101 in the NAC.

9

in most of the law schools, it's a 10-point deduction if you

And if you do moot court

10

don't cause the identification of the defendant during that

11

court proceeding.

So I'm just completely surprised.

12

MR. STERN:

Well, Your Honor --

13

THE COURT:

It's so easy to do, and you had so many

14

opportunities to do it, and it was not done.

15

MR. STERN:

Your Honor, I seriously doubt that in

16

closing argument Mr. Demik will argue that Mr. Wilson is not

17

the person who was the boss of this company.

18

as the agent --

He, essentially,

19

THE COURT:

It's your burden.

20

MR. STERN:

I appreciate that, Your Honor.

21

THE COURT:

And it's a burden that's easily dealt

22

with by asking one question of one witness and during the

23

course of six days in trial or five days in trial, that was not

24

done.

25

MR. STERN:

We would submit, and we apologize for

UNITED STATES DISTRICT COURT

Pet. App. 28

Case 2:04-cr-00476-SJO Document 191 Filed 08/13/18 Page 87 of 183 Page ID #:2214
87
1

that, Your Honor.

2

THE COURT:

It's not a matter of apology.

It's a

3

matter of whether this case should now be presented to the

4

jury.

5

MR. STERN:

We would submit that there's ample

6

evidence in the record from which a reasonable juror can infer

7

that Mr. --

8
9

THE COURT:

MR. STERN:

THE COURT:

This should never happen again with the

U.S. Attorney's Office.

14
15

Yes, we would, if we have permission, we

could reopen.

12
13

MR. STERN:

Well, I will send that message,

THE COURT:

This is the third time it's happened,

Your Honor.

16
17

and I just don't understand it.

18

would ask the question.

19

reopen.

Every DA I ever dealt with

So you will have an opportunity to

20

MR. STERN:

Thank you, Your Honor.

21

THE COURT:

We are adjourned.

22

(Recess taken from 11:31 a.m. to 12:37 p.m.)

23

(Out of the presence of the jury.)

24
25

Do you

wish to reopen?

10
11

Of course you would submit that.

THE COURTROOM DEPUTY:

Please come to order.

This

court is again in session.

UNITED STATES DISTRICT COURT

Pet. App. 29

Case 2:04-cr-00476-SJO Document 191 Filed 08/13/18 Page 88 of 183 Page ID #:2215
88
1

THE COURT:

We are back on the record on United

2

States versus Wilson, and we have counsel present and the

3

defendant present.

4

Please have a seat.

There was a Rule 29 motion for failure to identify the

5

defendant during trial proceedings.

6

Government the opportunity to reopen the case.

7
8
9
10

The Court has given the

Mr. Demik, I understand that you have an objection to
that.
MR. DEMIK:

Just an objection for the record,

Your Honor, yes.

11

THE COURT:

And do you have another witness to call?

12

MR. STERN:

Yes, we are prepared to proceed.

13
14

We are

going to recall Trevor Dusterhoft.
THE COURT:

And before we get to the issue of the

15

recalling of Inspector -- or Former Inspector Dusterhoft, we

16

have the instructions that have been offered, and I have the

17

joint proposed instructions.

18

instructions have been placed at the end of the body of

19

instructions, and they should be reordered, so I'm not sure why

20

they were offered in this manner.

21

MR. STERN:

We can --

22

THE COURT:

I think what you need to do -- do you

23
24
25

It appears that the special

understand what I'm saying?
MR. STERN:

Yes.

What we could do is place them

closer to the instructions on the elements because they clarify

UNITED STATES DISTRICT COURT

Pet. App. 30

